National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001
                                      December 11, 2007

TO:            Chief Financial Officer
               Director, Facilities Engineering and Real Property Division

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on NASA’s Accounting for Real Property Leased to
               Other Entities (Report No. IG-08-004; Assignment No. S-08-001-00)


During the annual audit of NASA’s financial statements, the independent public
accounting firm conducting the audit identified that NASA’s policies did not adequately
address accounting for real property that NASA owns but leases to another entity. The
Office of Inspector General (OIG) conducted a review to determine whether NASA is
properly accounting for leased real property in accordance with applicable accounting
standards. (See Enclosure 1 for details on the review’s scope and methodology.)

Executive Summary
We found that when NASA leases its real property to another entity, and the terms of the
lease do not meet the criteria of a capital lease, NASA improperly removes that property
from its general ledger. As a result, leased real property currently owned by NASA with
a capitalized value of approximately $295 million was removed from the general ledger.
We estimated the book value of these properties to be approximately $65 million as of
September 30, 2007.

Our October 19, 2007, draft of this memorandum recommended that the Chief Financial
Officer (CFO) and the Director, Facilities Engineering and Real Property Division
(FERPD), revise NASA’s applicable policies and procedures to fully address the proper
accounting for real property that NASA owns but leases to another entity, to include both
capital and operating leases. We also recommended that the CFO analyze NASA’s
leased real property for adjustments that should be made to the accounting records.

The Deputy CFO’s comments, with concurrence from the Director, FERPD, on the draft
of this memorandum are responsive (see Enclosure 3). We will close the
recommendations upon completion and verification of management’s corrective actions.

Background
Applicable Accounting Standards. The Statement on Auditing Standards (SAS)
No. 91, “Federal GAAP [Generally Accepted Accounting Principles] Hierarchy,” April
2000, outlines the hierarchy of GAAP for Federal entities, which includes requirements
published by the Federal Accounting Standards Advisory Board (FASAB), the American
                                                                                                 2



Institute of Certified Public Accountants (AICPA), and the Financial Accounting
Standards Board (FASB).

SAS No. 91 also states that the auditor of financial statements of a Federal governmental
entity may consider other accounting literature, depending on its relevance in the
circumstances. Examples of other accounting literature include Governmental
Accounting Standards Board (GASB) Statements, Interpretations, Technical Bulletins,
and Concepts Statements.

FASAB’s Statement of Federal Financial Accounting Standards (SFFAS) No. 6,
“Accounting for Property, Plant, and Equipment,” June 1996, states in Paragraph 18 that
property, plant, and equipment (PP&E) includes “property owned by the reporting entity
in the hands of others.” Further, Paragraph 20 specifies that if a lease at its inception
does not meet the criteria outlined as a capital lease, then the lease should be classified as
an operating lease. SFFAS No. 6 does not, however, outline the accounting treatment for
operating leases. Following the Federal GAAP hierarchy detailed in SAS No. 91, the
accounting literature to which Federal entities should refer for guidance on the
accounting treatment of operating leases is the FASB’s Financial Accounting Standard
No. 13, “Accounting for Leases,” November 1976. Paragraph 19 of Financial
Accounting Standard No. 13 states:
       Operating leases shall be accounted for by the lessor as follows:

            a.   The leased property shall be included with or near property, plant, and
                 equipment in the balance sheet. The property shall be depreciated following
                 the lessor’s normal depreciation policy, and in the balance sheet the
                 accumulated depreciation shall be deducted from the investment in the
                 leased property.

            b.   Rent shall be reported as income over the lease term as it becomes
                 receivable according to the provisions of the lease. However, if rentals vary
                 from a straight-line basis, the income shall be recognized on a straight-line
                 basis unless another systematic and rational basis is more representative of
                 the time pattern in which use benefit from the leased property is diminished,
                 in which case that basis shall be used.

NASA Real Property Accounting Process. NASA maintains a NASA-wide data
system for real property. This system is referred to as the Real Property Inventory (RPI).
The RPI was established to provide an easy-to-use, automated method for maintaining
and reporting real property data. According to property personnel in the Office of the
CFO (OCFO), when real property owned by NASA has been leased to another entity, and
the lease does not meet the criteria for a capital lease, the status within the RPI is
reflected as either “Reimbursable” or “Outgrant.” However, these terms are not defined
in NASA Policy Directive (NPD) 8800.14C, “Policy for Real Property Management,”
July 2004; NASA Procedural Requirements (NPR) 8800.15A, “Real Estate Management
Program Implementation Manual,” September 2003; or Volume 6, Chapter 4, “Property,
Plant and Equipment,” November 2006, of NASA’s Financial Management
Requirements (FMR).
                                                                                            3



NASA’s Policies and Procedures Inadequately Addressed Leased Property
We noted that reference to leased property in the relevant NPD, NPR, and FMR chapters
for real property is very limited (see Enclosure 2 for details). Even though existing
policy and guidance does not specifically address how to treat operating leases involving
NASA-owned real property from an accounting perspective, OCFO’s property personnel
stated that such property is removed from the accounting system by recognizing the full
amount of the net book value as depreciation expense in the year that the property is
leased to another entity. The real property, however, remains in the real property
management system (i.e., the RPI).

Our review of the FMR found that Subsection 040510 (Volume 6, Chapter 4,
Section 0405) states that real property coded in the RPI as “inactive or not in use by
NASA including Reimbursable, Stand-by, Mothballed, Abandoned, and Demolished will
also be promptly removed from the capitalized PP&E accounts.” Our discussions with
OCFO property personnel indicated that they consider “Reimbursable” to refer to leased
real property where NASA is the lessor (the owner of the property). As a result, the
FMR could be interpreted as requiring the removal of leased assets from the accounting
records. Similar language is included in FMR Subsection 040604 of Section 0406,
“NASA Held Real Property” (Volume 6, Chapter 4).

Further, OCFO personnel at Ames Research Center, Kennedy Space Center, Langley
Research Center, and Marshall Space Flight Center stated that the procedures for the
billing and collection of income from leased property are the same as procedures for
reimbursable agreements, which are addressed in FMR Volume 16, “Reimbursable
Agreements,” June 2006. Those FMR procedures include the following activities:

   •   each reimbursable agreement will be assigned a project work breakdown structure
       (WBS);

   •   costs will be billed monthly;

   •   advances, if received, will be liquidated by the billings; and

   •   collections will be credited to the NASA appropriation that was used to fund the
       reimbursable work.

Volume 16 does not provide specific details of the accounting treatment (e.g., debits and
credits posted in the general ledger) for those activities. Additionally, Volume 16 does
not specifically address or refer to operating leases when NASA is the lessor. However,
FMR Subsection 020605, “Application of Reimbursements Received” (Volume 16,
Chapter 2), does discuss how receipts from reimbursable work will generally be applied
to the fiscal year appropriation from which the cost of providing the service was paid
unless the receipt must be applied to a miscellaneous receipt account at Treasury.
                                                                                                                  4



FMR Subsection 020605 continues, stating that the two following factors must be
considered when determining whether the receipt will be applied to an appropriation or
miscellaneous receipt account at Treasury:
           1. In cases where the NASA appropriation includes specific funding to support the
           reimbursable work NASA cannot retain funds received from customers for this work.

           2. NASA must be assured that funds received represent reasonable compensation for
           costs incurred. Any reimbursement received in excess of the actual full cost incurred
           must be returned to the customer. The only exception to this would be agreements
           with non-federal customers where NASA charges market price and the market price
           exceeds NASA’s full cost. In that situation, the reimbursement received that exceeds
           full cost must be deposited to the Treasury Miscellaneous Receipts Account, unless
           specific legislation authority, such as Enhanced Use Lease Demonstration * authority,
           permits retention by the Agency.

The high-level procedures for the billing and collection of reimbursable agreements
outlined in the FMR are consistent with the activities we would expect for the billing and
collection of rent under lease agreements. We did not perform, however, any specific
procedures on transactions to determine adherence with these procedures as we relied
solely on inquiry of OCFO personnel at the aforementioned Centers. Further, our
inquiries were general in nature and did not address specifics (e.g., debits and credits for
each billing and collection activity). Even though we do not have concerns with the
overall process, the written policies and procedures for reimbursable agreements do not
indicate that they should be followed for the billing and collection of income from leased
property.

Improper Accounting for NASA Property with Operating Leases
We reviewed Capitalization Reconciliation Reports (CRRs), generated from the RPI, as
of August 27, 2007, for real property at all NASA sites. We found that Ames Research
Center, Langley Research Center, and Wallops Flight Facility lease real property to other
entities under operating leases.

The CRRs showed 55 real property items with an acquisition cost of at least $100,000
(i.e., the capitalization threshold) with a status classification of either outgrant or
reimbursable. The total acquisition cost of these real property items is approximately
$295 million. Of the 55 items, it appeared that 27 properties would not be fully
depreciated by the end of fiscal year 2007. Using the straight-line depreciation method,

*
    The Enhanced Use Lease Demonstration, as described in Title 42, United States Code (U.S.C.),
    Section 2459j, authorizes NASA’s Administrator to lease to any person or entity (Federal or non-Federal)
    real property under NASA’s jurisdiction at no more than two NASA Centers. NASA identified Ames
    Research Center and Kennedy Space Center as its two demonstration sites. According to the provisions
    of 42 U.S.C. 2459j, the lessee shall provide consideration for the lease at fair market value unless the
    lessee is a Federal entity, and then the consideration would be equal to the full cost to the lessor in
    connection with the lease. Consideration may be one or a combination of the following forms:
    (a) payment of cash; (b) the maintenance, construction, modification, or improvement of facilities on real
    property; (c) the provisions of services to the lessor; or (d) use by the lessor of facilities on the property.
    Cash consideration received will remain available until expended.
                                                                                              5



we estimated the net book value of the 27 properties to be approximately $65 million as
of September 30, 2007, and an annual depreciation expense of slightly less than
$3.5 million. The CRRs only reflect the cumulative total of the acquisition cost and the
initial date that the property was placed in service. They do not provide details in regard
to the cost of the initial property acquisition, cost of subsequent improvements, if any,
and the year that such improvements were made. As such, we were unable to determine
the exact number of real property items that were not fully depreciated and the
corresponding net book value and depreciation expense.

We noted that the CRR for Kennedy Space Center did not reflect any properties as
outgrant or reimbursable, despite Kennedy being one of NASA’s Enhanced Use Lease
Demonstration sites. Therefore, we obtained and reviewed spreadsheets provided by the
OCFO that listed all real property items leased to other entities. Our review identified
leased property (land) at Kennedy and additional leased property not only at Ames,
Langley, and Wallops, but also at Glenn Research Center, Goddard Space Flight Center,
the Jet Propulsion Laboratory, Johnson Space Center, Kennedy, Marshall, and Stennis
Space Center. The classification of these additional properties per the CRRs was either
active, abandoned, heritage, mothballed, standby, or active/heritage. Under NASA’s
policy, only the properties classified as active and active/heritage would be recorded in
the general ledger. Kennedy’s land leased under the Enhanced Use Lease Demonstration
authority is classified in the RPI as active. The spreadsheets did not specify the
percentage of the real property that is being leased or the acquisition cost of the real
property. Regardless, this is an indicator that additional real property items being leased
to other entities have been removed from NASA’s accounting records.

Conclusion
In our judgment, the OCFO does not account for NASA’s real property leased to other
entities under an operating lease in accordance with applicable accounting standards.
The applicable accounting standards require that leased property remain within the
lessor’s accounting records instead of being removed, which is NASA’s accounting
treatment.

We were informed by OCFO’s property personnel that the treatment of leased personal
property (e.g., equipment), whereby NASA is the lessor, is the same as it is for real
property. The accounting standards do not differentiate between personal property and
real property, so the accounting treatment of such property would be the same.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1.a. We recommended that the NASA Chief Financial Officer and the
Director, Facilities Engineering and Real Property Division, review and revise the
relevant FMR sections and NPR to clarify the policy and procedures related to the
recording of leased real property whereby NASA is the lessor under both capital and
                                                                                           6



operating leases. Topics to be considered for inclusion in the revisions are the definition
of terms used to indicate that property has been leased to another entity, reference to the
accounting procedures for reimbursable agreements for the recording of collections under
leases, and the procedures for recording leased assets in the accounting records. During
the revision process, there should be coordination between the OCFO and FERPD to
ensure that the terminology being used by each office is consistent.

   Management’s Response. Comments provided by the Deputy CFO, with
   concurrence from the Director, FERPD, concurred with the recommendation. The
   Deputy CFO stated that OCFO and FERPD were in the process of revising the
   applicable policy and procedural documents and expected the policy updates to be
   completed by July 31, 2008.

   Evaluation of Management’s Response. The Deputy CFO’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 1.b. We recommended that the NASA Chief Financial Officer and
the Director, Facilities Engineering and Real Property Division, provide training on the
revised FMR and NPR as a result of the above recommendation to OCFO and FERPD
personnel at both Headquarters and the Centers affected by the revisions.

   Management’s Response. The Deputy CFO concurred, stating that revised guidance
   will be discussed at annual training.

   Evaluation of Management’s Response. The Deputy CFO’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2.a. We recommended that the NASA Chief Financial Officer
perform an analysis of all real property leased to other entities under an operating lease.
The analysis should identify all relevant property with costs that meet or exceed the
capitalization threshold and for which the useful life has not expired. Based on the
results of the analysis, an adjustment should be recorded in the accounting records.
When determining the adjustment amount, consideration should be given and a
determination made as to whether the adjustment or a portion thereof should be recorded
as a prior period adjustment.

   Management’s Response. The Deputy CFO concurred, stating that an analysis of all
   capital real property leased to other entities had been performed and that the analysis
   resulted in a restatement of the FY 2006 financial statements in the amount of
   $68 million.

   Evaluation of Management’s Response. The Deputy CFO’s comments are
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.
                                                                                      7



Recommendation 2.b. We recommended that the NASA Chief Financial Officer
perform research and analysis on the accounting treatment of leased personal property
where NASA is the lessor to determine whether the accounting treatment is in accordance
with accounting standards. If OCFO’s research and analysis discloses that the accounting
treatment is not in accordance with accounting standards, then the OCFO should develop
and implement recommendations similar to our recommendations for real property.

   Management’s Response. The Deputy CFO concurred, stating that additional
   research and analysis will be performed on all leased property.

   Evaluation of Management’s Response. The Deputy CFO’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. Mark Jenson, Financial Statement Audits
Director, at 202-358-0629 or me at 202-358-2572.


   signed
Evelyn R. Klemstine

3 Enclosures

cc:
Assistant Administrator for Infrastructure and Administration
Deputy Chief Financial Officer
Executive Director, Ernst & Young LLP
                             Scope and Methodology

We performed this review from August through October 2007. However, the review was
limited in that we did not follow generally accepted government auditing standards. We
also did not review related internal controls. The purpose of the review was to identify
whether or not the apparent lack of guidance for leased property, as identified by the
financial statement auditors from Ernst & Young, LLP, resulted in NASA improperly
accounting for such property. As a result, the scope of the OIG review was limited to
determining applicable criteria, reviewing NASA policies and procedures, and
conducting a cursory review of records for leased property. However, we believe that the
evidence obtained during this limited review nonetheless provides a reasonable basis for
our findings and conclusions.

We obtained and examined CRRs generated by the RPI for NASA sites; OCFO
spreadsheet listings of real property items leased to other entities; and the following
NASA and regulatory guidance: FMR Volumes 6 and 16, NPD 8800.14C,
NPR 8800.15A, Financial Accounting Standard No. 13, SAS No. 91, and SFFAS No. 6.
We interviewed OCFO personnel at Headquarters and personnel at Ames, Kennedy,
Langley, and Marshall to clarify our understanding of the accounting treatment of leased
property when NASA is the lessor in terms of the recording of the property and the rental
income in the general ledger.

Computer-Processed Data. Although we based our conclusions on evidence gathered
from computer-processed data from the RPI and spreadsheets, we believe that evidence
to be reliable based on our confirmation of specific instances with appropriate
Headquarters and Center personnel.

Prior Coverage. We did not identify any reports issued during the last 5 years that
specifically addressed NASA’s accounting for leased property.




                                                                             Enclosure 1
                                                                             Page 1 of 1
                           Applicable NASA Guidance

NPD 8800.14C

   No reference to leased real property.

NPR 8800.15A

   No reference to leased property other than Paragraph 1.5.38, “Outgrants,” which
   discusses the tracking of outgrant property in the property management system.
   Specifically, this paragraph states that “the Real Property records will be annotated
   and documented in all cases involving outgrants for the use of NASA property by
   other parties. Real Property so granted will, during the term of the grant, be
   considered part of the NASA-owned Real Property and will be reported as such.”

FMR Volume 6, Chapter 4, “Property, Plant and Equipment”

   Section 0410, “Leased Property,” discusses only the accounting policies and
   procedures for PP&E leased by NASA (i.e., NASA is renting property from another
   entity) and subject to capitalization. This section does not address the accounting
   policies and procedures when NASA is the lessor.

   Section 0405, “Policies and Procedures,” does not specifically refer to the accounting
   treatment of leased real property when NASA is the lessor. Subsection 040510 does,
   however, indicate that real property coded in the RPI as “inactive or not in use by
   NASA including Reimbursable, Stand-by, Mothballed, Abandoned, and Demolished
   will also be promptly removed from the capitalized PP&E accounts.” Assuming the
   term “Reimbursable” refers to leased real property where NASA is the lessor, as
   indicated by OCFO property personnel, then it appears that the policy is to remove
   the leased asset from the accounting records. Similar language is included in
   Subsection 040604 of Section 0406, “NASA Held Real Property.”




                                                                               Enclosure 2
                                                                               Page 1 of 1
Management’s Comments




                        Enclosure 3
                        Page 1 of 3
Enclosure 3
Page 2 of 3
Enclosure 3
Page 3 of 3
